STATE OF MICHIGAN
DEPARTMENT OF ATTORNEY GENERAL

P.O. BOX 30212
LANSING, MICHIGAN 48909
DANA NESSEL
ATTORNEY GENERAL

January 21, 2021
Scott Harris, Clerk
United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543
Re:

Mike Brown v. Ervine Davenport, No. 20A116 (Application for Stay)

To the Clerk:
Acting Warden Mike Brown (the State) has filed a petition for a writ of
certiorari in this habeas corpus action (20-826). The State has also requested that
this Court stay the Sixth Circuit Court of Appeals’ mandate, which requires the
State either release or retry respondent Ervine Davenport by May 4, 2021.
Within its analysis, the State noted that, to curb the spread of the global
COVID-19 pandemic, the jurisdiction in which Davenport must be retried currently
prohibits jury trials. The State attached to the application an administrative
directive from the Kalamazoo County courts suspending all in-person jury trials
until February 1, 2021. (See Appendix H to the State’s application for stay.)
That prohibition has now been extended. Two days ago, on January 19, 2021,
the Kalamazoo County courts issued another administrative directive, this time
suspending jury trials until April 12, 2021. (See 1/19/21 Administrative Directive,
attached to this letter.)
The State wishes to bring this additional development to the attention of the
Court regarding its pending application to stay the mandate.
Sincerely,

FAH:hlg
Enclosures
cc:
Tasha J. Bahal

/s/ Fadwa A. Hammoud
Fadwa A. Hammoud
Michigan Solicitor General

